                                              OFFICE OF WORKERS’
                                              COMPENSATION PROGRAMS


Office of Inspector General—Office of Audit




                                              LONGSHORE AND HARBOR WORKERS’
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2011 and 2010


                                               This report was prepared by KPMG, LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.




                                                                                      __________________________
                                                                                    Assistant Inspector General for Audit

                                                                          Date Issued:              March 1, 2012
                                                                          Report Number:            22-12-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’ 

                           COMPENSATION ACT SPECIAL FUND 



                                      Table of Contents 




                                                                                          Page
ACRONYMS                                                                                     iii

Management’s Discussion and Analysis
   Mission and Organizational Structure                                                      1

   Financial Highlights                                                                      2

   Performance Goals and Results                                                             2

   Internal Controls                                                                         3

   Known Risks and Uncertainties                                                             4

   Limitations of the Financial Statements                                                   4

Independent Auditors’ Report                                                                 5

FINANCIAL STATEMENTS
   Balance Sheets                                                                           13 

   Statements of Net Cost                                                                   14 

   Statements of Changes in Net Position                                                    15 

   Statements of Budgetary Resources                                                        16 


NOTES TO THE FINANCIAL STATEMENTS
   Note 1 – Summary of Significant Accounting Policies                                      17 

   Note 2 – Funds with U.S. Treasury                                                        21 

   Note 3 – Investments, Net                                                                22 

   Note 4 – Accounts Receivable, Net                                                        23 

   Note 5 – Other Liabilities                                                               24 

   Note 6 – Transfers to OWCP                                                               24 

   Note 7 – Status of Budgetary Resources                                                   25 

   Note 8 – Reconciliation of Budgetary Resources Obligated 

            to Net Cost of Operations                                                       26 

   Note 9 – Concentration of Risk                                                           26 





_________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
i                                                              Report Number: 22-12-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





_________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
ii                                                             Report Number: 22-12-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’ 

                            COMPENSATION ACT SPECIAL FUND 



                                          Acronyms 




AUP          Agreed Upon Procedures

DLHWC        Division of Longshore and Harbor Workers’ Compensation

DOL          Department of Labor

Fund         Longshore and Harbor Workers’ Compensation Act Special Fund

FY           Fiscal Year

LHWCA        Longshore and Harbor Workers’ Compensation Act

OMB          Office of Management and Budget

OWCP         Office of Workers’ Compensation Programs

Program      Longshore and Harbor Workers’ Compensation Act Program

U.S.C.       United States Code




_________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
iii                                                            Report Number: 22-12-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK





_________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
iv                                                             Report Number: 22-12-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report


                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis

                              September 30, 2011 and 2010 





Mission and Organizational Structure

The Longshore and Harbor Workers’ Compensation Act (LHWCA) provides medical
benefits, compensation for lost-wages and rehabilitation services for job-related injuries,
diseases or death of private-sector workers in certain maritime and related employment.
Generally, benefits are paid directly from private funds by an authorized self-insured
employer or through an authorized insurance carrier. Cases meeting the requirements of
the Longshore and Harbor Workers’ Compensation statute are paid from the Longshore
and Harbor Workers’ Compensation Act Special Fund (the Fund) comprised primarily of
employer contributions (assessments). In fiscal year (FY) 2011 and 2010, 4,071 and
4,202 respectively injured workers and dependents received compensation benefits from
the Fund.

The reporting entity is the Fund. Organizationally the Fund is administered by the
Department of Labor (DOL), Office of Workers’ Compensation Programs (OWCP),
Division of Longshore and Harbor Workers’ Compensation program (DLHWC). The
DLHWC has direct responsibility for administration of the Fund. The Fund supports the
program mission by providing compensation, and in certain cases, medical care
payments to employees disabled from injuries which occurred on the navigable waters of
the United States, or in adjoining areas used for loading, unloading, repairing, or building
a vessel. The Fund also extends benefits to dependents if any injury resulted in the
employee’s death.

Additionally, Section 10(h) of the LHWCA provides annual wage increase compensation
(cost of living adjustments). Fifty percent of this annual wage increase for pre-1972
compensation cases is paid by Federal appropriated funds, and fifty percent is paid by
the Fund through the annual assessment. Appropriated funding for Section 10(h) is not
reflected in the accompanying financial statements. Appropriated funding is reflected in
the Federal Employees Compensation Act Special Benefit Fund.

Administrative services for operating the Fund are provided by OWCP through direct
Federal Appropriations. Appropriated funding for administrative services is not reflected
in the accompanying financial statements.




                                         U.S. Department of Labor – Office of Inspector General
                                           1                 Report Number: 22-12-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report


                       LONGSHORE AND HARBOR WORKERS’ 

                        COMPENSATION ACT SPECIAL FUND 

                         Management’s Discussion and Analysis
                             September 30, 2011 and 2010

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$122,909,591 in FY 2011 and $123,791,447 in FY 2010. During fiscal years 2011 and
2010, recoveries were made for the Fund due to activities involving the application of
Agreed Upon Procedures (AUP) on Forms LS-513, Report of Payments (used in the
calculation of the annual assessment), and negotiation/collection of past due
assessments. The AUP program recovered $3,450,976 in FY 2011 and $801,517 in FY
2010 for the Fund. These recoveries have reduced, and will continue to reduce, carrier
assessments and are reflected separately on the Statement of Changes in Net Position.

Investment income for the Fund was $24,791 for FY 2011 compared to $40,412 for FY
2010. The average interest rate earned during FY 2011 was 0.07% compared to 0.10%
for FY 2010. The Fund’s costs remained relatively stable compared to FY 2010;
$124,345,106 for FY 2011 compared to $128,248,009 for FY 2010.

The sources of payments into the Fund include: fines and penalties levied under the
LHWCA (section 44c); payments by employers of $5,000 for each death case where
there is no survivor entitled to the benefits; interest payments on Fund investments; audit
recoveries; and, by far the largest source, payment of annual assessments by
self-insured employers and insurance carriers.

Proceeds of the Special Fund are used for payments under: section 8(f) for second
injury claims; section 10(h) for initial and subsequent annual adjustments in
compensation for permanent total disability or related death from injuries which occurred
prior to the effective date of the 1972 LHWCA amendments; sections 39(c) and 8(g) for
the procurement of medical and vocational rehabilitation services for permanently
disabled employees and to provide a maintenance allowance to workers undergoing
rehabilitation; section 18(b) for compensation to injured workers in cases of employer
default; and section 7(e) for the cost of certain medical examinations.

Performance Goals and Results

The DLHWC’s administration of the Fund supports DOL’s Strategic Goal 4 – Secure
health benefits and, for those not working, provide income security. This goal broadly
promotes the economic security of workers and families. In particular, the DLHWC’s
administration of the Fund supports Performance Goal 4.2 – Reduce the Consequences
of Work-Related Injuries. DOL plays a large role in ensuring that worker benefits are
protected and that employers administer benefit programs in an appropriate way. The

                                         U.S. Department of Labor – Office of Inspector General
                                           2                 Report Number: 22-12-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report


                       LONGSHORE AND HARBOR WORKERS’ 

                        COMPENSATION ACT SPECIAL FUND 

                         Management’s Discussion and Analysis
                              September 30, 2011 and 2010



DLHWC assists in meeting this outcome goal by establishing the long term performance
goal of ensuring sufficient funds are assessed to fund the annual payments, and by
prompt payment to the beneficiaries. In FY 2011, assessments were sufficient to cover
the costs, and performance goals targeting the timeliness of initial claims processing and
benefit delivery outcomes were achieved.

Internal Controls

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management, Insurance and Assessment is comprised of four employees and one
supervisor. It guards against unethical behavior by segregating duties and assigning
roles to each function.      Much of the oversight, evaluation, monitoring, control, and
supervisory activity is face-to-face. Each of the district offices operate like the Branch of
Financial Management and Insurance.

Management communicates all procedural, policy, and operating goals to staff with
regular staff meetings, a written procedure manual, e-mails, and frequent individual
communications regarding changes, problems and issues.

Statutes provide the formal standards where these are applicable, such as privacy
statutes, cash handling procedures, and conflict of interest regulations. All codes,
statutes, and regulations governing the conduct of Federal employees apply to all
Longshore Division employees.

For cases paid by the Special Fund, a District Director or Administrative Law Judge
issues a formal Compensation Order to identify the payee and set the amount. Five
employees review each new case before making the payment to ensure accuracy.

With the exception of certain internal control deficiencies noted in the Independent
Auditors’ Report, monthly cash basis statements, monthly case management reports,
quarterly review processes, biweekly payment summaries, the Statement of Transactions
(SF-224), and the Statement of Differences (FMS-6652) all provide current, reliable, and
accurate information.




                                         U.S. Department of Labor – Office of Inspector General
                                           3                 Report Number: 22-12-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report


                       LONGSHORE AND HARBOR WORKERS’ 

                        COMPENSATION ACT SPECIAL FUND 

                         Management’s Discussion and Analysis
                              September 30, 2011 and 2010



Known Risks and Uncertainties

The Fund is the single largest payer of indemnity payments under the LWHCA. It pays
more than double the next largest payer of benefits. Although there are approximately
530 authorized insurance carriers and self-insured employers, benefit payments are
concentrated among a relatively few. For example, the top 10 carriers and self-insurers
alone pay 45% of the total industry payments excluding Special Fund payments. If a
major carrier or self-insurer fails, the remainder would face substantially increased
assessments.

The Fund is reviewed one year at a time for current expenses. There are no reserve
funds for future Fund obligations. A series of high value single payment claims, for
example a large number of hearing loss claims resolved in the private sector, could
exceed the predictions used to quantify the assessment. A single, very large claim from
an uninsured, bankrupt employer could have the same effect. Temporary collection
issues could result, necessitating special, unscheduled assessments or other actions to
ensure the Fund has sufficient liquid resources to fund claims liabilities as they come
due.

There are currently no known examples of these risks and uncertainties.

Limitations of the Financial Statements

The following are limitations of the financial statements:

	 The financial statements have been prepared to report the financial position and
   results of operations of the Fund, pursuant to the requirements of the Longshore and
   Harbor Workers’ Compensation Act (33 U.S.C. 944(j)).
	 While the statements have been prepared from the books and records of the Fund in
   accordance with the formats prescribed by the Office of Management and Budget,
   (OMB), the statements are different from the financial reports used to monitor and
   control budgetary resources which are prepared from the same books and records.
	 The statements should be read with the realization that they are for a component of
   the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
   the enactment of an appropriation, and that the payment of all liabilities other than for
   contracts can be abrogated by the sovereign entity.



                                          U.S. Department of Labor – Office of Inspector General
                                            4                 Report Number: 22-12-004-04-432
                                  Longshore and Harbor Workers’ Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report




                        KPMG LLP
                        Suite 12000
                        1801 K Street, NW
                        Washington, DC 20006




                              Independent Auditors’ Report



Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of Labor’s
(DOL) Longshore and Harbor Workers’ Compensation Act Special Fund (the Fund) as
of September 30, 2011 and 2010, and the related statements of net cost, changes in net
position, and budgetary resources (hereinafter referred to as “financial statements”) for
the years then ended. The objective of our audits was to express an opinion on the fair
presentation of these financial statements. In connection with our fiscal year 2011 audit,
we also considered the Fund’s internal control over financial reporting and tested the
Fund’s compliance with certain provisions of applicable laws and regulations that could
have a direct and material effect on these financial statements.
Summary
As stated in our opinion on the financial statements, we concluded that the Fund’s
financial statements as of and for the years ended September 30, 2011 and 2010, are
presented fairly, in all material respects, in conformity with U.S. generally accepted
accounting principles.
Our consideration of internal control over financial reporting resulted in identifying
certain deficiencies that we consider to be a material weakness, as defined in the
Internal Control Over Financial Reporting section of this report, as follows:

      Controls Over the Financial Reporting Process Need Improvement
The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards, issued by the Comptroller General of
the United States, and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended.
The following sections discuss our opinion on the Fund’s financial statements; our
consideration of the Fund’s internal control over financial reporting; our tests of the



                                                       U.S. Department of Labor – Office of Inspector General
                                                         5                 Report Number: 22-12-004-04-432
                           KPMG LLP is a Delaware limited liability partnership,
                           the U.S. member firm of KPMG International Cooperative
                           (“KPMG International”), a Swiss entity.
                              Longshore and Harbor Workers’ Compensation Act Special Fund
                                      Financial Statements and Independent Auditors’ Report




Fund’s compliance with certain provisions of applicable laws and regulations; and
management’s and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying balance sheets of the U.S. Department of Labor’s
Longshore and Harbor Workers’ Compensation Act Special Fund as of September 30,
2011 and 2010, and the related statements of net cost, changes in net position, and
budgetary resources for the years then ended.
In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Labor’s Longshore and Harbor
Workers’ Compensation Act Special Fund as of September 30, 2011 and 2010, and its
net costs, changes in net position, and budgetary resources for the years then ended, in
conformity with U.S. generally accepted accounting principles.
The information in the Management’s Discussion and Analysis is not a required part of
the financial statements, but is supplementary information required by U.S. generally
accepted accounting principles. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this
information and, accordingly, we express no opinion on it.
Internal Control Over Financial Reporting
Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify
all deficiencies in internal control over financial reporting that might be significant
deficiencies or material weaknesses and therefore, there can be no assurance that all
deficiencies, significant deficiencies, or material weaknesses have been identified.
However, in our fiscal year 2011 audit, we identified certain deficiencies in internal
control over financial reporting that we consider to be a material weakness.
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or a combination of deficiencies, in internal control such that
there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiencies described in Exhibit I to be a material weakness.
Exhibit I presents the status of the prior year material weakness.




                                        U.S. Department of Labor – Office of Inspector General
                                          6                 Report Number: 22-12-004-04-432
                              Longshore and Harbor Workers’ Compensation Act Special Fund
                                      Financial Statements and Independent Auditors’ Report




Compliance and Other Matters
The results of our tests of compliance described in the Responsibilities section of this
report, disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

                                       *******

Responsibilities

Management’s Responsibilities. Management is responsible for the financial
statements; establishing and maintaining effective internal control; and complying with
laws and regulations applicable to the Fund.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal
year 2011 and 2010 financial statements of the Fund based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04
require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the Fund’s internal control over financial
reporting. Accordingly, we express no such opinion.

An audit also includes:
	   Examining, on a test basis, evidence supporting the amounts and disclosures in
     the financial statements;
	   Assessing the accounting principles used and significant estimates made by
     management; and
	   Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.
In planning and performing our fiscal year 2011 audit, we considered the Fund’s internal
control over financial reporting by obtaining an understanding of the Fund’s internal
control, determining whether internal controls had been placed in operation, assessing
control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements, but
not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of the Fund’s internal control over financial reporting. We did not test all

                                        U.S. Department of Labor – Office of Inspector General
                                          7                 Report Number: 22-12-004-04-432
                             Longshore and Harbor Workers’ Compensation Act Special Fund
                                     Financial Statements and Independent Auditors’ Report




controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982.
As part of obtaining reasonable assurance about whether the Fund’s fiscal year 2011
financial statements are free of material misstatement, we performed tests of the Fund’s
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of the financial statement
amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws and regulations
applicable to the Fund. However, providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we do not express such
an opinion.
                          ______________________________

The Fund’s response to the finding identified in our audit is presented in Exhibit I. We
did not audit the Fund’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of DOL’s management, DOL’s
Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than
these specified parties.




February 17, 2012




                                       U.S. Department of Labor – Office of Inspector General
                                         8                 Report Number: 22-12-004-04-432
                             Longshore and Harbor Workers’ Compensation Act Special Fund
                                     Financial Statements and Independent Auditors’ Report

                                                                                    Exhibit I


Controls Over the Financial Reporting Process Need Improvement
During our fiscal year (FY) 2010 audit, we noted that the internal controls over the
preparation and review of the Fund financial statements performed by the Office of
Workers’ Compensation Programs (OWCP) Division of Longshore and Harbor Workers’
Compensation program (DLHWC) and Office of the Chief Financial Officer (OCFO)
were not operating effectively. We recommended that management improve its internal
controls over financial reporting to ensure that (1) reconciliations between the Fund’s
general ledger account balances and balances reflected in subsidiary ledgers are being
prepared and reviewed consistently throughout the year; (2) supervisory review
controls, including those over journal entries are being effectively performed; (3) SF-
224s are being thoroughly reviewed prior to submission to Treasury; and (4) differences
identified by Treasury are resolved on a timely basis.

Although OWCP has made some improvement in its financial reporting processes, we
continued to identify certain control deficiencies in FY 2011 related to controls over
financial reporting. Specifically, during our review of the draft FY 2011 Fund financial
statements and notes, we noted the following errors:

1. When comparing beginning balances reported in the draft Statement of Changes in
   Net Position (SCNP) and Statement of Budgetary Resources (SBR) to the related
   ending balances reported in the FY 2010 audited financial statements, we identified
   the following errors which were related to topside adjustments presented in the
   audited FY 2010 financial statements:
         Cumulative Results of Operations (CRO) – Beginning Balance, October 1,
          2010 was overstated by $4 million; and
         Unobligated Balance, Brought Forward, October 1, 2010 was understated by
          $972 thousand.
   Additionally, the affect of the FY 2010 topside adjustments were incorrectly reported
   in the line item “FY 2010 Audit Adjustments” on the Statement of Net Cost (SNC)
   and SCNP.
2. Balances reported for Appropriations Received and Obligations Incurred on the SBR
   were overstated by $3.5 million and $2 million, respectively.
3. The balance for Assessments on the SCNP was understated by $4 million.
4. Net Cost of Operations reflected in the SNC did not agree to Net Cost of Operations
   reflected in the SCNP.
5. Numerous FY 2010 balances shown for comparative purposes in the draft FY 2011
   financial statements and notes did not agree to the amounts reflected in the FY 2010
   audited financial statements and notes.




                                       U.S. Department of Labor – Office of Inspector General
                                         9                 Report Number: 22-12-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report

6. The description of the reporting entity and key performance goals included in the
   Management’s Discussion and Analysis section of the draft FY 2011 report were not
   accurate.
7. Reconciling items identified in Note 7(b), E
                                              	 xplanation of Differences between the
   Statement of Budgetary Resources and the Budget of the United States
   Government, were not explained.
These items were corrected by management in the final financial statements.

The issues above were primarily caused by certain adjustments (i.e., topside
adjustments) made by OWCP to the FY 2010 audited financial statements that were
initially recorded outside of the general ledger. OWCP management was aware that the
October 1, 2010 beginning balances and certain ending balances reported in the
general ledger were incorrect. However, management failed to implement an alternative
process to ensure that the FY 2011 financial statements were fairly stated, in all
material respects, as of and for the year ended September 30, 2011.

The remaining errors occurred because OWCP management does not have policies
and procedures that require a comprehensive and detailed review of all financial
information in the draft financial statements, including budgetary to proprietary account
relationships. The lack of sufficient review increases the risk that material errors or fraud
would not be detected and corrected timely.

We also noted that supervisory review controls over journal entries were not effectively
performed in FY 2011. This was caused by insufficient review by DOL supervisors of
journal entries to ensure they were properly prepared and supported before posting to
the general ledger. Furthermore, the Office of the Chief Financial Officer had not
enhanced its policies and procedures to address the minimum documentation
requirements needed to adequately support journal entries during the first two quarters
of FY 2011; the policies and procedures were subsequently updated in June 2011.
Without proper review of transactions, management is unable to determine the
appropriateness of transactions posted to the general ledger.

We used the following criteria during our FY 2011 testing over OWCP’s financial
processes:

The Government Accountability Office (GAO), Standards for Internal Control in the
Federal Government states, “Internal control should generally be designed to assure
that ongoing monitoring occurs in the course of normal operations. It is performed
continually and is ingrained in the agency’s operations. It includes regular management
and supervisory activities, comparisons, reconciliations, and other actions people take
in performing their duties.”

The Standards also state, “Control activities occur at all levels and functions of the
entity. They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the


                                         U.S. Department of Labor – Office of Inspector General
                                           10                Report Number: 22-12-004-04-432
                              Longshore and Harbor Workers’ Compensation Act Special Fund
                                      Financial Statements and Independent Auditors’ Report

creation and maintenance of related records, which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.”

Further, the Standards state that, “Internal control should provide reasonable assurance
that the objectives of the agency are being achieved relative to reliability of financial
reporting, including reports on budget execution, financial statements, and other reports
for internal and external use and compliance with applicable laws and regulations.”

Office of Management and Budget (OMB) A-136, Financial Reporting Requirements
(Circular No. A-136), requires agencies to, “Identify and explain material differences
between amounts reported in the SBR and the actual amounts reported in the Budget of
the United States Government as required by SFFAS No.7.” Circular No. A-136 further
states that, “At a minimum, agencies should display the material differences for
comparable line items related to budgetary resources, obligations, distributed offsetting
receipts and outlays. The schedule should be accompanied by a narrative explaining to
the reader why the differences exist.”

To address the issues noted above, we recommend that OWCP management:

   1. Design and implement policies and procedures that require a comprehensive and
      detailed review of all financial information in the draft financial statements. The
      policies and procedures should include:

          a. 	Specific procedures for agreeing comparative prior year financial data to
              the prior year audited statements;
          b. Comparing financial data reported on the different statements to ensure
              accuracy and consistency;
          c. 	Reconciling the financial data between the general ledger and subsidiary
              ledgers to ensure existence, completeness, and accuracy of financial data
              reported;
          d. Performing a budgetary to proprietary account relationship analysis and
              resolving identified variances; and
          e. 	Analyzing significant variances between current period and prior period
              financial information.

   2. Develop monitoring controls to ensure that sufficient supervisory review controls
      over journal entries and the related documentation are being performed before
      the journal entries are posted to the general ledger.

Management’s Response:

Management concurs with the recommendations. By March 31, 2012, a checklist will be
developed and implemented for agreeing comparative prior year financial data to the
prior year audited statements; comparing financial data reported on the different
statements to ensure accuracy and consistency; reconciling the financial data between


                                       U.S. Department of Labor – Office of Inspector General
                                         11                Report Number: 22-12-004-04-432
                              Longshore and Harbor Workers’ Compensation Act Special Fund
                                      Financial Statements and Independent Auditors’ Report

the general ledger and subsidiary ledgers to ensure existence, completeness, and
accuracy of financial data reported; performing a budgetary to proprietary account
relationship analysis and resolving identified variances as appropriate; and analyzing
significant variances between current period and prior period financial information.

OWCP will implement another level of review to ensure that sufficient supervisory
review controls are being performed. Effective March 31, 2012, all journal entries will
be submitted to the Financial Manager for review and approval prior to their posting into
the general ledger.

Auditors’ Response:

FY 2012 audit procedures will determine whether these recommendations have been
adequately addressed and can be considered closed.




                                       U.S. Department of Labor – Office of Inspector General
                                         12                Report Number: 22-12-004-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report




                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2011 and 2010


                           Assets                                   2011              2010
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                        $        5,164     $    1,333,422
   Investments, net (Note 3)                                    58,170,000         60,579,000
            Total intra-governmental assets                     58,175,164         61,912,422
Accounts receivable, net (Note 4)                                1,762,823        3,025,359
           Total assets                                     $   59,937,987     $ 64,937,781
               Liabilities and Net Position
Liabilities:
  Accrued benefits payable (Note 1f )                       $      655,439     $      354,421
  Expenditure transfers payable (Note 6)                                —           2,124,000
  Deferred revenue (Note 1h)                                    30,343,942         30,946,645
  Other liabilities (Note 5)                                     7,425,371         10,393,535
            Total liabilities                                   38,424,752         43,818,601
Net position:
  Cumulative results of operations                              21,513,235       21,119,180
            Total liabilities and net position              $   59,937,987     $ 64,937,781


See accompanying notes to financial statements.




       ____________________________________________________________________________________
                                             U.S. Department of Labor – Office of Inspector General
                                          13                     Report Number: 22-12-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                                    Statements of Net Cost
                          Years ended September 30, 2011 and 2010


                                                                  2011                2010
Special fund net cost of operations:
  Second injury compensation, Section 8(f)                $   112,862,602     $   116,078,379
  Wage increase compensation, Section 10(h)                     1,388,781           1,484,105
  Compensation payment for self-insurer in default,
    Section 18(b)                                               6,303,804           6,739,775
  Rehabilitation services, Section 39(c)                        2,822,065           3,183,165
  Medical Services 7(e)                                                —                  500
  Bankrupt self-insured employers, Section 32(a)                  967,854             762,085
            Net cost of operations                        $   124,345,106     $   128,248,009


See accompanying notes to financial statements.




      ____________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
                                          14                   Report Number: 22-12-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                          Years ended September 30, 2011 and 2010


                                                                 2011                2010
Cumulative results of operations, beginning              $     21,119,180    $     26,404,264
Budgetary financing sources:
  Transfers in/out without reimbursement (Note 6)              (2,118,307)         (2,124,000)
  Non-exchange revenues (Note 1i):
    Interest                                                      24,791               40,412
    Fines and Penalties                                          472,110              453,549
    Audit Recoveries                                           3,450,976              801,517
    Assessments                                              122,909,591          123,791,447
            Total non-exchange revenues                      126,857,468          125,086,925
Total financing sources                                      124,739,161          122,962,925
Net cost of operations                                     (124,345,106)       (128,248,009)
            Net position, end of period                  $   21,513,235      $   21,119,180


See accompanying notes to financial statements.




      ____________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
                                        15                     Report Number: 22-12-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report




                        LONGSHORE AND HARBOR WORKERS’

                         COMPENSATION ACT SPECIAL FUND 

                           Statements of Budgetary Resources
                       Years ended September 30, 2011 and 2010


                                                             2011              2010
Budgetary resources:
  Unobligated balance, brought forward               $    59,983,697    $   61,053,982
  Budget authority
    Appropriations received (assessments)                124,674,417      127,343,949
    Spending authority from offsetting collections                —                —
  Temporary not available pursuant to Public Law                  —                —
           Total budgetary resources                 $   184,658,114    $ 188,397,931
Status of Budgetary Resources:
  Obligations Incurred (Note 7)
     Direct                                          $   126,589,732    $ 128,414,234
  Unobligated balances - available:
     Other available - exempt from apportionment          58,068,382       59,983,697
            Total status of budgetary resources      $   184,658,114    $ 188,397,931
Change in obligated balance:
  Obligated balance, net
    Unpaid obligations, brought forward, October 1   $      2,478,421 $           —
  Obligations Incurred, net                               126,589,732    128,414,234
  Less: Gross Outlays                                    (128,412,714)  (125,935,813)
  Obligated balance, net, end of period
    Unpaid obligations                               $       655,439    $     2,478,421
Outlays:
 Gross Outlays                                       $   128,412,714    $ 125,935,813
 Net outlays                                         $   128,412,714    $ 125,935,813


See accompanying notes to financial statements.




____________________________________________________________________________________
                                     U.S. Department of Labor – Office of Inspector General
                                  16                     Report Number: 22-12-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’ 

                         COMPENSATION ACT SPECIAL FUND 

                             Notes to the Financial Statements
                        Years ended September 30, 2011 and 2010


(1)   Summary Of Significant Accounting Policies
      The principal accounting policies which have been followed in preparing the
      accompanying financial statements for the Fund are set forth below.
      (a)   Reporting Entity
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (the Fund). The Fund is
            administered by the Department of Labor (DOL), Office of Workers’
            Compensation Programs (OWCP), Division of Longshore and Harbor Workers’
            Compensation program (DLHWC). The DLHWC has direct responsibility for
            administration of the Fund. The Fund offers compensation, and in certain
            cases, medical care payments to employees disabled from injuries which
            occurred on the navigable waters of the United States, or in adjoining areas
            used for loading, unloading, repairing, or building a vessel. The Fund also
            extends benefits to dependents if any injury resulted in the employee’s death.
            Additionally, the Longshore and Harbor Workers’ Compensation Act (LHWCA)
            [Section 10(h)] provides annual wage increase compensation (cost of living
            adjustments). Fifty percent of this annual wage increase for pre-1972
            compensation cases is paid by Federal appropriated funds and fifty percent is
            paid by the Fund through the annual assessment. Appropriated funding for
            10(h) is not reflected in the accompanying financial statements. Appropriated
            funding is reflected in the Federal Employees Compensation Act Special
            Benefit Fund.

      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (the Fund), in
            accordance with U.S. generally accepted accounting principles and the form
            and content requirements of Office of Management and Budget (OMB) Circular
            A-136, Financial Reporting Requirements. These financial statements have
            been prepared from the books and records of the Fund. These financial
            statements are not intended to present, and do not present, the full cost of the
            Longshore and Harbor Workers’ Compensation Act Program (the Program). In
            addition to the Fund costs presented in these statements, the full cost of the

 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                    17                     Report Number: 22-12-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report



                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                            Notes to the Financial Statements
                       Years ended September 30, 2011 and 2010


          Program would include certain direct costs of OWCP in the form of salaries
          and expenses for administration of the Program and allocated costs of OWCP
          and other DOL agencies incurred in support of the Program. The full cost of
          the Program is included in the DOL consolidated financial statements and
          related notes. The Fund is considered a fiduciary activity of DOL and is
          properly disclosed and reported in the consolidated financial statements of
          DOL as a fiduciary fund.
          U.S. generally accepted accounting principles encompass both accrual and
          budgetary transactions. Under accrual accounting, revenues are recognized
          when earned, and expenses are recognized when a liability is incurred.
          Budgetary accounting facilitates compliance with legal constraints on, and
          controls over, the use of Federal funds. These financial statements are
          different from the financial reports, also prepared for the Fund pursuant to
          OMB directives, used to monitor the Fund’s use of budgetary resources.
    (c)   Funds with U.S. Treasury
          The Fund does not maintain cash in commercial bank accounts. Cash receipts
          and disbursements are processed by the U.S. Treasury. The Fund Balance
          with U.S. Treasury is a trust fund that is available to pay current liabilities and
          finance authorized purchase commitments.
    (d)   Investments, Net
          Investments in U.S. Government securities are reported at cost, net of
          unamortized premiums or discounts, which approximate market value.
          Premiums or discounts are amortized on a straight-line basis, which
          approximates the effective interest method. The Fund’s intent is to hold
          investments to maturity, unless they are needed to finance claims or otherwise
          sustain the operations of the Fund. No provision is made for unrealized gains
          or losses on these securities because they are held to maturity.




____________________________________________________________________________________
                                      U.S. Department of Labor – Office of Inspector General
                                   18                     Report Number: 22-12-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report



                      LONGSHORE AND HARBOR WORKERS’
                       COMPENSATION ACT SPECIAL FUND
                              Notes to the Financial Statements
                      Years ended September 30, 2011 and 2010


    (e)   Accounts Receivable, Net
          The amounts due as receivables are stated net of an allowance for
          uncollectible accounts. The allowance is estimated based on past experience
          in the collection of the receivables and an analysis of the outstanding
          balances. Accounts receivable are comprised of assessments receivable and
          Fund benefit overpayments made to individuals primarily from amended
          compensation orders and corrections of payment computations.
    (f)   Accrued Benefits Payable
          The Fund provides compensation and medical benefits for work related injuries
          to workers in certain maritime employment. The Fund recognizes a liability for
          disability benefits payable to the extent of unpaid benefits applicable to the
          current period. It does not include a liability for incurred but not reported
          claims. Ultimate responsibility for payment of such claims rests with the
          employer organizations. Accrued disability benefits payable as of September
          30, 2011 amounted to $655,439, and as of September 30, 2010 they amount
          to $354,421.
    (g)   Other Liabilities
          Other liabilities are comprised primarily of amounts received by the Fund from
          defaulted employers which are being held as security by authority of Section
          32 of the LHWCA. These funds and investments are available for
          compensation and medical benefits to covered employees of the defaulted
          companies. Management estimates that these funds and investments held will
          be sufficient to cover the future benefits associated with the covered
          employees. Also included in other liabilities are assessment overpayments by
          insurance carriers or self-insured employers which are to be refunded at the
          insurance carrier or self-insured employers’ request or applied to reduce future
          assessments.
    (h)   Deferred Revenue
          Deferred revenue represents the unearned assessment revenue as of
          September 30, the Fund’s accounting year end. The annual assessments
          cover a calendar year and, accordingly, the portion extending beyond
          September 30 has been deferred. Deferred revenue reported on the balance
          sheets is considered “Other Liabilities” under OMB Circular A-136.

____________________________________________________________________________________
                                      U.S. Department of Labor – Office of Inspector General
                                   19                     Report Number: 22-12-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report



                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                            Notes to the Financial Statements
                       Years ended September 30, 2011 and 2010


    (i)   Financing Sources Other Than Exchange Revenue
          Non-exchange revenues arise from the Federal government’s power to
          demand payments from and receive donations from the public. Non-exchange
          revenues are recognized by the Fund for assessments and penalties levied
          against the public and interest income from investments.
          The Fund’s primary source of revenue is annual assessments levied on
          insurance carriers and self-insured employers. Assessments are recognized as
          non-exchange revenue when due. Audit recoveries result from the application
          of Agreed Upon Procedures on reported carrier data. Recoveries are
          recognized as revenues when final agreement is reached with the carriers. The
          Fund receives interest on Fund investments and on Federal funds in the
          possession of non-Federal entities. The Fund also receives revenue from
          penalties assessed in accordance with various sections of the LHWCA.
    (j)   Reclassifications
          The fiscal year (FY) 2010 statements were reclassified to conform to the FY
          2011 financial statement presentation requirements. The reclassifications had
          no effect on total assets, liabilities, net position, and changes in net position or
          budgetary resources as previously reported.




____________________________________________________________________________________
                                      U.S. Department of Labor – Office of Inspector General
                                   20                     Report Number: 22-12-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’ 

                           COMPENSATION ACT SPECIAL FUND 

                                Notes to the Financial Statements
                          Years ended September 30, 2011 and 2010


(2)   Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2011 and 2010 consisted of cash
      deposits of $5,164 and $1,333,422, respectively. These cash deposits at
      September 30, 2011 and 2010 included $396 and $361, respectively, which are
      being held as security by authority of Section 32 of the LHWCA. These funds relate
      to the default of self-insured employers, and are available for payment of
      compensation and medical benefits to covered employees of the defaulted
      companies.
      Funds with U.S. Treasury at September 30, 2011 consisted of the following:
                                                Entity Assets
                           Unobligated   Unobligated     Obligated
                            Balance       Balance       Balance Not    Total       Non-entity
      (In Dollars)          Available    Unavailable Yet Disbursed Entity Assets    Assets       Total

      Trust Fund      $            —             —          5,164         5,164           — $       5,164



      Funds with U.S. Treasury at September 30, 2010 consisted of the following:
                                                Entity Assets
                           Unobligated   Unobligated     Obligated
                            Balance       Balance       Balance Not    Total       Non-entity
      (In Dollars)          Available    Unavailable Yet Disbursed Entity Assets    Assets        Total

      Trust Fund       $           —             —       1,333,422     1,333,422           — $   1,333,422




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                    21                     Report Number: 22-12-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’ 

                            COMPENSATION ACT SPECIAL FUND 

                                 Notes to the Financial Statements
                          Years ended September 30, 2011 and 2010




(3)   Investments, Net
      Investments at September 30, 2011 and 2010 consisted of the following:
                                                          September 30, 2011
                                           Face        Premium           Net           Market
      (In Dollars)                         Value      (Discount)        Value          Value
      Intragovernmental securities:
         Non-Marketable:
            Par value               $    58,170,000          —       58,170,000      58,170,000


                                                           September 30, 2010
                                            Face        Premium           Net          Market
       (In Dollars)                         Value      (Discount)        Value         Value
       Intragovernmental securities:
          Non-Marketable:
             Par value               $   60,579,000           —       60,579,000      60,579,000




      Investments of $6,614,223 and $7,403,123 at September 30, 2011 and 2010,
      respectively, are restricted assets that are being held as security by authority of
      Section 32 of the LHWCA. These investments are available for payment of
      compensation and medical benefits to covered employees of the defaulted
      companies. Investments at September 30, 2011 and 2010 consist of overnight
      securities. Investments at September 30, 2011 bear an interest rate of 0.00%
      compared to an interest rate of 0.08% for September 30, 2010. Interest rates on
      securities bought and sold during FY 2011 ranged from 0.00% to 0.18% compared
      to 0.01% to 0.17% for FY 2010.




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                    22                     Report Number: 22-12-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’ 

                           COMPENSATION ACT SPECIAL FUND 

                                 Notes to the Financial Statements
                         Years ended September 30, 2011 and 2010


(4)   Accounts Receivable, Net
      Accounts receivable at September 30, 2011 and 2010 consisted of the following:
      (In Dollars)                                                        2011                  2010
      Benefit overpayments                                       $      1,695,591        $    1,774,485
      Assessments receivable                                              499,129             1,800,088
      Less: allowance for doubtful accounts                              (431,897)             (549,214)
            Total accounts receivable from the public, net       $      1,762,823        $    3,025,359


      Assessments receivable represent the unpaid annual assessments from the current
      and prior year. Accounts receivable from benefit overpayments to claimants arise
      primarily from amended compensation orders and corrections of payment
      computations. These receivables are being primarily recovered by partial and total
      withholding of benefit payments.
      Changes in the allowance for doubtful accounts during FY 2011 and FY 2010
      consisted of the following:
                                                                 2011
                                   Allowance        Write                                    Allowance
      (In Dollars)               October 1, 2010    Offs             Bad Debt            September 30, 2011

      Entity assets:
        Benefit overpayments $        (504,212)              —             74,810 $               (429,402)
        Assessment receivable          (45,002)              —             42,507                   (2,495)

                            $         (549,214)              —            117,317 $               (431,897)

                                                                 2010
                                   Allowance         Write                                   Allowance
      (In Dollars)               October 1, 2009     Offs               Bad Debt         September 30, 2010

      Entity assets:
        Benefit overpayments $        (927,225)              —            423,013    $            (504,212)
        Assessment receivable         (128,238)              —             83,236                  (45,002)

                            $        (1,055,463)             —            506,249    $            (549,214)




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                     23                    Report Number: 22-12-004-04-432
                                      Longshore and Harbor Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report



                            LONGSHORE AND HARBOR WORKERS’ 

                             COMPENSATION ACT SPECIAL FUND 

                                  Notes to the Financial Statements 

                           Years ended September 30, 2011 and 2010 



(5)   Other Liabilities
      Other liabilities at September 30, 2011 and 2010 consisted of the following current
      liabilities:
      (In Dollars)                                                   2011             2010
      Other liabilities:
        Assessment overpayments by carriers                   $     810,752    $    2,990,051
        Defaulted employer liability:
          Held in investments                                      6,614,223        7,403,123
          Held in cash                                                   396              361
                                                                   6,614,619        7,403,484
                     Total other liabilities                  $    7,425,371   $   10,393,535



      Assessment overpayments by carriers are to be refunded upon request or applied
      to reduce future assessments.
      Defaulted employer liability relates to cash and investments held by the Fund which
      are being held as security by authority of Section 32 of the LHWCA. These funds
      are available for compensation and medical benefits to covered employees of the
      defaulted companies.
(6)   Transfers to OWCP
      The Fund reimburses OWCP (a related entity within the Department of Labor) for
      rehabilitation services provided to eligible claimants and certain direct expenses
      associated with administrative support of the Fund. Approved transfers out to the
      OWCP were $2,118,307 in FY 2011 and $2,124,000 in FY 2010. Transfers are
      made from the Special Fund in accordance with sections 39(c), 44(d), and 44(j) of
      the LHWCA.
      As of September 30, 2010, the FY 2010 approved transfers of $2,124,000 were not
      actually accomplished and an Expenditure Transfer Payable was reflected on the
      balance sheet. No such liability is required as of September 30, 2011 as the FY
      2011 approved transfer was made in FY 2011.




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                     24                    Report Number: 22-12-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’ 

                           COMPENSATION ACT SPECIAL FUND 

                                  Notes to the Financial Statements
                          Years ended September 30, 2011 and 2010


(7) 	 Status of Budgetary Resources
     (a) 	 Apportionment Categories of Obligations Incurred
          (In Dollars)	                                              2011                  2010
          Direct Obligations:
             Exempt from apportionment                         $ 126,589,732       $ 128,414,234


     (b) 	 Explanation of Differences Between the Statement of Budgetary 

           Resources and the Budget of the United States Government 

          The budgetary resources, obligations incurred and outlays of the Fund are
          combined with the District of Columbia Workers’ Compensation Act Special
          Fund in the Program and Financing schedule of the Budget of the United
          States Government. A reconciliation of budgetary resources, obligations
          incurred and outlays, as presented in the Fund’s Statement of Budgetary
          Resources to amounts included in the Budget of the United States
          Government for the year ended September 30, 2010 is shown below:
                                                                                  2010
                                                               Budgetary        Obligations
          (Dollars in Millions)                                Resources         Incurred         Outlays
          Statement of Budgetary Resources - LHWCA         $        188     $        128      $     126
          Amounts included in the Statement of
          Budgetary Resources - DCCA                                 15                9              9
          Amounts included in the Statement of Budgetary
          Resources subsequent to submission of budget               10                2              4
          Total Statement of Budgetary Resources	                   213              139            139
          Budget of the United States Government           $        213     $        139      $     139




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                     25                    Report Number: 22-12-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2011 and 2010


(8)   Reconciliation of Budgetary Resources Obligated to Net Cost of Operations

                                                                  2011             2010
Budgetary resources obligated:
  Obligations incurred                                      $ 126,589,732    $ 128,414,234
           Total resources used to finance activities         126,589,732      128,414,234
Resources used to finance items not part of the
      net cost of operations
  Resources that funded expenditure transfers                  (2,118,307)                —
           Total resources used to finance items not part
             of the net cost of operations                     (2,118,307)                —
          Total resources used to finance the net cost
            of operations                                     124,471,425      128,414,234
Components not requiring or generating resources:
 Revaluation of assets and liabilities                            (74,810)        (423,013)
 Other                                                            (51,509)         256,788
           Total components of net cost of operations
             that will not require or generate resources
                 in the current period                           (126,319)        (166,225)
           Net cost of operations                           $ 124,345,106    $ 128,248,009




 (9) Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at
      a time for current expenses; there is no reserve for future Fund obligations. In
      keeping with the requirement of Section 44 of the LWHCA, obligations are paid as
      they are incurred. Assessments are based on compensation and medical benefits
      paid in the prior calendar year.




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                     26                    Report Number: 22-12-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report




               THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





____________________________________________________________________________________
                                      U.S. Department of Labor – Office of Inspector General
                                    27                    Report Number: 22-12-004-04-432
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:       1-800-347-3756
                 202-693-6999

Fax:             202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
